                         U.S. ELECTION ASSISTANCE COMMISSION

                                  OFFICE OF INSPECTOR GENERAL

                                1225 New York Ave. NW - Suite 1100 

                                      Washington, DC 20005



                                                                                October 2, 2006

Memorandum

To:             Thomas Wilkey
                Executive Director

From:	          Curtis Crider
                Inspector General

Subject: 	      Non Compliance with the Federal Information Security Management Act
                by the U.S. Election Assistance Commission (Assignment No. I-EV-EAC-
                02-06)

       The U.S. Election Assistance Commission (EAC) has not complied with the
Federal Information Security Management Act (FISMA).

        FISMA (Section 3544) requires the Head of each Federal agency to provide
“information security protections commensurate with the risk and magnitude of the harm
resulting from unauthorized access, use, disclosure, disruption, modification, or
destruction of --

(i) information collected or maintained by or on behalf of the agency; and

(ii) information systems used or operated by an agency or by a contractor of an agency or
other organization on behalf of an agency.”

       EAC is a small Federal agency; it has an annual operating budget of
approximately $15 million and employees less that 30 people. More importantly, it does
not own or operate any information technology (IT) systems. Thus, we believe, the
impact of its non compliance is minor. Nonetheless, the Office of Management and
Budget (OMB) advised1 in its fiscal year 2004 reporting requirements for micro-agencies
(agencies that employ fewer that 100 Federal employees) that:

         All the requirements established in FISMA apply to all agencies
         regardless of their size. OMB has developed an abridged reporting
         format for micro-agencies. This abridged template for micro-agencies
         does not exempt them from FISMA requirements and OMB guidance . . .



1
 See OMB Memorandum M-04-25, FY 2004 Reporting Instructions for the Federal Information Security
Management Act, dated August 23, 2004.
DISCUSSION

        Congress authorized the EAC with the passage of the Help America Vote Act
(HAVA) in October 2002. According to HAVA, the duties of EAC are to “serve as a
national clearinghouse and resource for the compilation of information and review of
procedures with respect to the administration of Federal Elections . . . .” EAC’s first full
year of operation was fiscal year 2004. Since that time, it has not submitted any reports
to OMB on its information security management.

        The fiscal year 2006 budget for EAC, excluding funds transferred to the National
Institute of Standards and Technology, was about $14 million and included 26 full time
equivalents. The major budget categories were research and development, personal
compensation and benefits, and other services.

        The General Services Administration (GSA) provides administrative support and
related IT services for personnel management, payroll, and financial management to EAC
under three reimbursable agreements. GSA also furnishes IT support by maintaining
EAC’s Local Area Network and electronic mail. EAC’s website is operated by an
independent contractor.

       EAC has not yet established policies and procedures for information security or
privacy management.


RECOMMENDATIONS

We recommend that the Executive Director:

   1.	 Establish and implement policies and procedures for information security and
       privacy management.

   2.	 Comply with the applicable provisions of FISMA and OMB implementing 

       guidance. 



RESPONSE TO MEMORANDUM

       Please provide a response to this memorandum by November 3, 2006. Your reply
should indicate whether you agree or disagree with the recommendations and, if
applicable, include a plan of action for implementing the recommendations. The plan
should include target dates and the name of the official responsible for implementing the
recommendations.

        The legislation creating the Office of Inspector General requires that we report to
the Congress semiannually on all reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented. Therefore,
this report will be included in the next semiannual report.
